i*

v.-'

»r

No.
IN THE
SUPREME COURT OF THE UNITED STATES

CHARLES G. KINNEY, Esq.
Admitted to the bar of the Ninth Circuit: August 30,1995
Petitioner,
v.
UNITED STATES COURT OF APPEALS
FOR THE NINTH CIRCUIT,
Respondent.
On Petition For Writ Of Certiorari To The
Ninth Circuit Court of Appeals
Ninth Circuit
Case No. 15-80090

CERTIFICATE OF SERVICE to petition for a writ
OF CERTIORARI

CHARLES KINNEY
Petitioner in pro se
5826 Presley Way
Oakland, CA 94618
charleskinney@hotmail.com
Telephone: 510-654-5133
Fax: 510-594-0883

RECEIVED
JUL -S 2020

CERTIFICATE OF SERVICE
I am a resident of the U.S. I am over the age of eighteen years and not a party to
the within action. My business address is 5826 Presley Way, Oakland, CA 94618.
On the date noted below, I mailed true copies of the PETITION with APPENDIX
included, CERTIFICATE OF COMPLIANCE, and this CERTIFICATE (per Rule 29),
enclosed in a sealed envelope with postage fully prepaid thereon in a US Post Office mail
box at Oakland, CA, addressed to:
Clerk
United States Court of Appeals
For the Ninth Circuit
95 Seventh St.
P.O. Box 193939
San Francisco, CA 94119-3939
I declare under penalty of perjury under the laws of the State of California that the
foregoing is true and correct and that this declaration was executed in Oakland, CA.
_s/_Chris Kinney_
Chris Kinney

Date: July 1, 2020

1

~~

